U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Valero Energy Corporation, et al. v. Environmental Protection Agency,
S.Ct. No. 19-83 5

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
30, 2019, and placed on the docket on January 2, 2020. The government's response is due on
February 3, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 4, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0835
VALERO ENERGY CORPORATION, ET AL.
EPA

MEGAN H. BERGE
BAKER BOTTS L.L.P.
THE WARNER
1299 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-639-1308
SAMARA L. KLINE
BAKER BOTTS L.L.P.
2001 ROSS AVENUE
DALLAS, TX 75201
214-953-6825
RICHARD MOSKOWITZ
AMERICAN FUEL & PETROCHEMICAL
MANUFACTURERS
1800 M STREET, NW
SUITE 900 NORTH
WASHINGTON, DC 20036
202-457-0480
BRITTANY M. PEMBERTON
BRACE WELL LLP
2001 M STREET NW
SUITE 900
WASHINGTON, DC 20036
202-828-1708
CLARA M. POFFENBERGER
ENVIRONMENTAL LAW AND POLICY, LLC
2933 FAIRHILL ROAD
FAIRFAX, VA 22031
703-231-5251

EVAN A. YOUNG
BAKER BOTTS LLP
98 SAN JACINTO BOULEVARD
SUITE 1500
AUSTiN, TX 7870 1-4078
512-322-2506
EVAN.YOUNG@BAKERBOTTS.COM

